                Inadequate Accountability and Training for
                  Key Security Employees Contributed to
                Significant Computer Security Weaknesses

                                   January 2004

                       Reference Number: 2004-20-027




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   January 14, 2004


       MEMORANDUM FOR CHIEF, MISSION ASSURANCE


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report – Inadequate Accountability and Training for
                                    Key Security Employees Contributed to Significant Computer
                                    Security Weaknesses (Audit # 200320006)


       This report presents the results of our review of roles and responsibilities of employees
       with key security duties. The overall objectives of this review were to determine
       whether the roles and responsibilities of key Internal Revenue Service (IRS) security
       employees were implemented consistently, and whether the employees had the
       requisite training, formal education, and experience needed to carry out their
       responsibilities.
       System administrators and security specialists have day-to-day responsibility for
       ensuring that the computer systems are set up and maintained in a secure manner.
       Our previous audits,1 as well as a General Accounting Office review,2 have identified
       security vulnerabilities that indicated these duties have not always been effectively
       performed. We performed this audit to assess how well security responsibilities were
       carried out on a broader scale.
       In summary, our review of local servers and workstations at five locations again
       identified significant security vulnerabilities. Vendor patches were not applied to
       hardware and software to ensure known vulnerabilities were adequately mitigated,
       configuration baselines were not maintained in order to identify unauthorized changes,

       1
         The Security of the Integrated Collection System Needs to Be Strengthened (Reference Number 2003-20-119, dated
       May 2003), Penetration Test of Internal Revenue Service Computer Systems (Reference Number 2003-20-082, dated
       March 2003), Many Advances Made But Additional Emphasis Is Needed on Key Initiatives in the Security Service
       Organization (Reference Number 2003-20-005, dated October 2002), and Computer Security Controls Should Be
       Strengthened in the Former Northern California District (Reference Number 2001-20-036, dated January 2001).
       2
         Progress Made, but Weaknesses at the Internal Revenue Service Continue to Pose Risks (GAO-03-44, dated May
       2003).
                                                2

audit trails and event logs were not generated and reviewed, employees were given
access to computer systems although there was no record of managerial approval, and
user accounts were not deleted when employees separated.
A major underlying cause for these conditions was that accountability for carrying out
key security responsibilities was not maintained. Interviews of IRS employees identified
widespread confusion in this area. We also identified instances in which duties were
not performed or not properly separated and, in some instances, duties were duplicated.
Also, employees with key security responsibilities did not have sufficient training. A
significant percentage of employees believe that they had not received sufficient training
to adequately perform their security-related duties. The training they received was not
always helpful because it was too general, not timely, or not work-related. Some
employees had not received any security training in the past 3 years.
The IRS has designated computer security a material weakness, as required by the
Federal Managers’ Financial Integrity Act of 1982.3 To correct this material weakness,
the IRS has developed a plan that it expects to implement by March 31, 2004. The plan
contains action items that address both the security roles and responsibilities issue, and
the security training issue. We plan to evaluate the effectiveness of these actions after
they have been fully implemented.
We recommended that the Chief, Mission Assurance, develop a methodology to
evaluate system administrators’ and security specialists’ performance of their roles and
responsibilities with respect to security requirements. We also suggested conducting
periodic computer scans that will identify potential vulnerabilities. The results can be
used to evaluate how well the employees are maintaining security on computers under
their ownership. We also recommended that the Chief, Mission Assurance, take certain
actions to ensure appropriate security training for key security personnel.
Management’s Response: The Chief, Mission Assurance, concurred with our
recommendations. Mission Assurance is developing a methodology to evaluate system
administrators’ and security specialists’ role and responsibilities, which will be
accomplished in two steps. Step one addresses training of system administrators and
security specialists, and step two addresses evaluating the performance of those
employees. In addition, it has identified employees with key security responsibilities.
For those employees, skill sets and appropriate security curriculum will be determined,
and a policy statement on assessing skill sets and security training will be issued.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.


3
    31 U.S.C. §§ 1105, 1113, and 3512 (2000).
              Inadequate Accountability and Training for Key Security Employees
                  Contributed to Significant Computer Security Weaknesses




                                                Table of Contents


Background ............................................................................................... Page 1
Key Security Employees Did Not Always Perform
Their Responsibilities ................................................................................ Page 2
         Recommendations1 and 2: ............................................................ Page 9

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Management’s Response to the Draft Report .................... Page 14
             Inadequate Accountability and Training for Key Security Employees
                 Contributed to Significant Computer Security Weaknesses

                                    In the Internal Revenue Service (IRS), technical computer
Background
                                    security responsibilities are assigned to system
                                    administrators and security specialists.1 Generally, system
                                    administrators are responsible for day-to-day systems
                                    operations and security specialists are responsible for
                                    specific security tasks and security oversight. Both
                                    positions are needed to ensure proper segregation of duties,
                                    similar to a system of checks and balances. For example,
                                    system administrators can make changes to computer
                                    configurations and settings, while security specialists review
                                    audit trails to identify unauthorized accesses and changes to
                                    the configurations.
                                    The Internal Revenue Manual (IRM) defines roles and
                                    responsibilities for system administrators and security
                                    specialists. The IRS’ Information Technology Services
                                    Office has the responsibility of implementing security duties
                                    for the system administrators and security specialists, while
                                    the Office of Security Services provides oversight and
                                    guidance when needed.
                                    In several of our prior audits,2 as well as a General
                                    Accounting Office (GAO) review3 of the IRS, not having
                                    clear roles and responsibilities and inadequate training for
                                    employees with key security responsibilities have been cited
                                    as the causes of many security vulnerabilities identified.
                                    Those audits were conducted on individual applications or


                                    1
                                      We focused this review on system administrators’ and security
                                    specialists’ responsibilities. While these positions are responsible for
                                    most of the computer security tasks in the IRS, they are not the only
                                    positions. Other positions, such as telecommunications analysts and
                                    database administrators, also have important computer security
                                    responsibilities.
                                    2
                                      The Security of the Integrated Collection System Needs to Be
                                    Strengthened (Reference Number 2003-20-119, dated May 2003),
                                    Penetration Test of Internal Revenue Service Computer Systems
                                    (Reference Number 2003-20-082, dated March 2003), Many Advances
                                    Made But Additional Emphasis Is Needed on Key Initiatives in the
                                    Security Service Organization (Reference Number 2003-20-005, dated
                                    October 2002), and Computer Security Controls Should Be Strengthened
                                    in the Former Northern California District (Reference Number
                                    2001-20-036, dated January 2001).
                                    3
                                      Progress Made, but Weaknesses at the Internal Revenue Service
                                    Continue to Pose Risks (GAO-03-44, dated May 2003).
                                                                                                    Page 1
            Inadequate Accountability and Training for Key Security Employees
                Contributed to Significant Computer Security Weaknesses

                                   operating systems and, consequently, we limited our
                                   assessments to local concerns. We performed this audit to
                                   evaluate these two issues on a broader scale.
                                   This audit was conducted in the Los Angeles, California,
                                   and Oklahoma City, Oklahoma, area offices, a Washington,
                                   D.C., satellite office, and the Atlanta, Georgia, and
                                   Brookhaven, New York, Campuses4 from December 2002 to
                                   June 2003. The employees we interviewed in these offices
                                   were responsible for the operation of several diverse
                                   systems and applications. The audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objectives, scope, and
                                   methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   IRS employees’ workstations are usually connected to
Key Security Employees Did Not
                                   sensitive data on local network servers as well as on larger
Always Perform Their
                                   computers maintained in IRS computing centers5 and
Responsibilities
                                   campuses. Because of the trusted relationship between user
                                   workstations and other servers on the network, a high
                                   degree of security must be maintained over these computer
                                   systems to prevent improper disclosure of taxpayer data,
                                   attacks by malicious employees and hackers, and disruption
                                   of operations. To provide an adequate level of security,
                                   controls must be in place on each of the interconnected
                                   workstations as well as the servers.
                                   In November 2001, the IRS began implementing a Common
                                   Operating Environment (COE) for all Windows-based
                                   workstations. The COE provides a set of applications and
                                   security standards and adequately addresses the most
                                   common security vulnerabilities associated with
                                   workstations. Currently, a majority of all Windows-based
                                   workstations have been updated with the COE.



                                   4
                                     The campuses are the data processing arm of the IRS. The campuses
                                   process paper and electronic submissions, correct errors, and forward
                                   data to the computing centers for analysis and posting to taxpayer
                                   accounts.
                                   5
                                     IRS computing centers support tax processing and information
                                   management through a data processing and telecommunications
                                   infrastructure.
                                                                                                  Page 2
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                       We purposely selected sites where the COE had been
                       implemented because the COE represents the future of the
                       IRS workstations nationwide, and we wanted to evaluate
                       whether system administrators were maintaining adequate
                       security controls after implementation. All workstations at
                       the sites we visited contained the COE configuration and
                       were adequately secured.
                       However, we identified several vulnerabilities on the
                       network servers at the sites we visited. A COE type of
                       implementation is not feasible for servers because they have
                       specific functionalities and require different configurations
                       to operate. Instead, the IRS relies upon system
                       administrators for proper configurations.
                       We identified the following vulnerabilities that are
                       consistent with findings reported in prior reports. We
                       believe these problems are persistent and will remain until
                       security roles and responsibilities are effectively carried out
                       and employees are adequately trained and held accountable.
                           •    Ten of 20 servers had at least 1 of the System
                                Administration, Audit, Network Security (SANS)
                                Institute/Federal Bureau of Investigation (FBI) Top
                                20 security vulnerabilities6 that could have been
                                resolved with current patches from the vendors. We
                                consider these to be high-risk vulnerabilities.
                           •    Eight of 12 system administrators were not aware of,
                                or did not maintain or document, configuration
                                baselines for systems under their control.
                                Consequently, they could not compare current
                                configurations against the baseline to identify
                                unauthorized changes.
                           •    Ten of 14 system administrators and security
                                specialists did not generate or review audit trails or



                       6
                         The SANS Institute was established in 1989 as a research and
                       education organization for government and private industry security.
                       The SANS Institute, along with the FBI, periodically announces the list
                       of top 20 computer security vulnerabilities, based on security incidents
                       recently reported.
                                                                                        Page 3
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                              event logs to identify questionable activities on the
                              network.
                          •   Forty-one (39 percent) of 106 Information Systems
                              User Registration/Change Request forms
                              (Form 5081) were not available for our review.
                              These forms are used to grant employees access to
                              the network and applications. As such, IRS
                              employees may have been given access to computer
                              systems without managerial approval or a proper
                              need to know.
                          •   Twenty-eight (14 percent) of 206 user accounts were
                              still active although the employees had been
                              separated from the IRS an average of 139 days. One
                              of these accounts had two suspicious accesses after
                              the employee had separated. The former employee
                              or another employee who knew the account’s
                              password may have made the accesses to the
                              network. These accesses have been referred to the
                              Office of Investigations for further analysis. None
                              of the other 27 user accounts had accesses after the
                              employees separated.
                       These vulnerabilities can have a significant adverse effect
                       on the overall security of information systems. When
                       patches are not applied, computer components remain
                       vulnerable to compromise. Not having audit trails may
                       permit questionable system accesses and activities to go
                       undetected. Employees given access to computer systems
                       without proper approval or background investigations may
                       misuse taxpayer data. In addition, user accounts of
                       separated employees that are still active may be improperly
                       used to gain access to systems and data.
                       We attribute these vulnerabilities, in part, to inadequate
                       accountability for security responsibilities and security
                       training for key employees (i.e., system administrators and
                       security specialists).
                       Key security employees were not accountable for
                       carrying out their responsibilities
                       The lists of responsibilities for both system administrators
                       and security specialists were specified in the IRM in
                                                                              Page 4
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                       January 2002. These responsibilities, if carried out, would
                       have eliminated or at least reduced the vulnerabilities we
                       continue to identify.
                       For example, system administrator duties include:
                       maintaining an up-to-date listing of current system users and
                       at least annually distributing a list of users and their access
                       profiles to appropriate managers for review, update, and
                       certification; ensuring proper acquisition, installation,
                       testing, protection, and use of system software; and
                       maintaining current documentation that properly defines the
                       technical hardware and software configuration of system
                       and network connections.
                       Security specialist duties include: ensuring user access is
                       restricted to the minimum necessary to perform his/her
                       duties; monitoring system integrity, protection levels, and
                       security related events; and generating audit trails and
                       security reports and distributing them to the appropriate
                       managers for review.
                       While these key security procedures were adequately
                       defined, the vulnerabilities we identified and our interviews
                       of system administrators and security specialists in five
                       offices indicate widespread confusion on key security
                       procedures. Even some managers of key security
                       employees were not clear about their own responsibilities
                       and their employees’ security related duties.
                       Our interviews with 29 system administrators and security
                       specialists identified the following examples that
                       demonstrate confusion over responsibilities. Managers did
                       not actively monitor performance of these responsibilities.
                          •   Five employees were confused over who had
                              responsibility for maintaining Windows
                              workstations and servers, as well as applying and
                              testing computer patches.
                          •   Four employees still retained their previous system
                              administrator rights when their new position no
                              longer required this access privilege.




                                                                               Page 5
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                             •    Three employees were performing both system
                                  administrator and security specialist duties on the
                                  same system.
                             •    One employee did not know whether the users on
                                  the server were authorized users.
                             •    Five employees were performing duties from their
                                  previous position, while adding their new security
                                  duties.
                             •    Two employees in one office were assigned the
                                  same duties of identifying separated employees, yet
                                  neither performed this responsibility.
                       The IRS has designated computer security as a material
                       weakness, as required by the Federal Managers’ Financial
                       Integrity Act of 1982.7 Security roles and responsibilities
                       have been categorized as a subset of this material weakness,
                       and the IRS has developed a plan for resolving this material
                       weakness by March 31, 2004. The plan identifies
                       (1) corrective actions, (2) the agency organization
                       responsible for correcting each type of weakness, (3) key
                       milestones with completion dates, and (4) the status of
                       actions.
                       The IRS’ material weakness plan contains action items
                       designed to appropriately delineate security roles and
                       responsibilities within functional business, operating, and
                       program units and to appropriately segregate system
                       administration and security administration responsibilities.
                       This plan also lists actions to be taken to optimally
                       configure system software to ensure the security and
                       integrity of system programs, files, and data, including
                       development of the process to publish and deploy operating
                       system patches. Many of these actions are pending. We
                       plan to conduct an in-depth analysis of the material
                       weakness plan and validate the results in other reviews.
                       The plan, however, does not address how Modernization
                       and Information Technology Services managers and
                       employees are going to be held accountable for carrying out


                       7
                           31 U.S.C. §§ 1105, 1113, and 3512 (2000).
                                                                                  Page 6
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                       security roles. The National Aeronautics and Space
                       Administration (NASA), for example, has placed
                       responsibility for technical security controls on system
                       administrators and periodically runs computer scans to
                       identify vulnerabilities. System administrators are then
                       evaluated on the number of vulnerabilities reported per
                       workstation. While this approach should not be the only
                       means to evaluate system administrators, it clearly gives
                       managers an indication of potential issues that may need
                       attention and shows administrators how they are doing in
                       relation to others in their agency.
                       Employees with key security responsibilities did not
                       have sufficient training
                       When we began our audit work, we asked security officials
                       to identify the IRS employees with key security
                       responsibilities so we could evaluate the training provided
                       IRS-wide. Because the IRS was not able to identify
                       employees with key security responsibilities, we limited our
                       testing to those employees in the offices we reviewed.
                       The IRS’ training database contained accurate training
                       histories for the employees included in our test. However,
                       8 of the 29 system administrators, security specialists, and
                       customer support personnel we interviewed did not receive
                       sufficient training to perform their related duties. Six of the
                       8 personnel had not received any security training in the
                       past 3 years. Recommended courses for these positions
                       include: Norton Anti-Virus for Administrators,
                       Microcomputer Security - Windows NT, Voice and Data
                       Security, Securing Communications and Networks, and
                       Internet and System Security.
                       Twelve of the 29 employees stated that they had not
                       received sufficient training to adequately perform their
                       duties. They believe the training they had received was not
                       always helpful because it was too general, not timely, or not
                       sufficiently work-related.
                       In addition to training, we evaluated the formal education
                       and experience of employees that we interviewed. The
                       interviews showed that 5 of the 29 employees had received
                       a computer-related college degree. An additional

                                                                               Page 7
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                       12 employees had taken college computer-related courses,
                       most of which were taken prior to the employees getting
                       their current positions. The remaining 12 employees had no
                       formal computer-related education, and 2 of those did not
                       have any computer experience prior to getting their current
                       positions. Not having computer-related education and
                       experience may indicate that some employees in the field
                       are not fully qualified to perform their assigned
                       responsibilities.
                       The National Institute of Standards and Technology (NIST)
                       and the GAO recommend that computer security training
                       should be role-based. Role-based learning focuses on the
                       job functions employees perform rather than on their job
                       titles. In particular, it provides security training that
                       satisfies the specific requirements of an employee’s role.
                       The NIST and the GAO also recommend that methods
                       should be employed for determining whether employees
                       have learned and retained what they have been taught and
                       whether their performance has improved.
                       The IRS has also designated security training as a subset to
                       the computer security material weakness. The IRS’ material
                       weakness plan provides steps to deliver sufficient technical
                       security-related training to key personnel. The plan includes
                       steps to identify security-related training needs for
                       employees based on their roles and responsibilities and to
                       update current online and classroom courses for key
                       personnel. These actions are still in process.
                       Subsequent to the start of this audit, the IRS identified
                       288 employees with significant computer security
                       responsibilities, based on the criteria that 25 percent of their
                       time is spent on computer security activities. We disagree
                       with this methodology because other employees have
                       important computer security responsibilities even though
                       those responsibilities do not consume 25 percent of their
                       time. These employees include system administrators,
                       telecommunications analysts, and database administrators.




                                                                                Page 8
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                       Recommendations

                       The Chief, Mission Assurance, should:
                       1. Develop a methodology to evaluate system
                          administrators’ and security specialists’ performance of
                          their roles and responsibilities. We encourage the Chief,
                          Mission Assurance, to consider methodologies similar to
                          those used by the NASA that provide quantifiable
                          results and suggest conducting periodic computer scans
                          that will identify vulnerabilities. The results can be used
                          to evaluate how well the employees are maintaining
                          security on computers under their stewardship.
                       Management’s Response: Mission Assurance management
                       plans to develop a methodology to evaluate system
                       administrators’ and security specialists’ roles and
                       responsibilities in a two-step process. Step one involves
                       linking training to position descriptions and developing
                       related training courses that address current technology and
                       policies. Step two involves developing a strategic planning
                       document that identifies implementation schedules and
                       milestones for evaluating employee performance.
                       2. Ensure the current effort to identify security training
                          needs will result in appropriate security training for
                          employees with key security duties by:
                          •   Identifying employees in all offices with key roles
                              and responsibilities.
                          •   Establishing Knowledge, Skills, and Abilities (KSA)
                              standards for key personnel.
                          •   Assessing the KSAs of key personnel.
                          •   Allocating sufficient funds to ensure key personnel
                              are recruited and trained.
                       Management’s Response: Mission Assurance management
                       has identified employees with key security responsibilities
                       and has moved qualified individuals into security positions.
                       For these employees, they plan to identify skill sets and
                       appropriate training, and issue a policy statement on
                       assessing those skill sets and security training.

                                                                              Page 9
             Inadequate Accountability and Training for Key Security Employees
                 Contributed to Significant Computer Security Weaknesses

                                                                                                  Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the roles and responsibilities of
key Internal Revenue Service (IRS) security employees were implemented consistently, and
whether these employees had the requisite training, formal education, and experience needed to
carry out their responsibilities.
I.      To evaluate the adequacy of policies and guidelines that had been developed to ensure
        Windows computer systems were installed and maintained in a secure manner, the
        administrators were properly trained in their jobs, and there was appropriate separation of
        duties, we:
        A.       Reviewed guidance documents from Federal Government sources (e.g., Internal
                 Revenue Manual, Treasury Directives, and the National Institute of Standards and
                 Technology) and computer industry sources (e.g., the System Administration,
                 Audit, Network Security Institute1).
        B.       Interviewed End User Equipment and Services (EUES) management to determine
                 the roles of the system administrators and security specialists and how they
                 differed, and determine the roles of the EUES organization for ensuring adequate
                 Local Area Network (LAN) security. Also, we determined what training was
                 available, and what other guidelines or policies had been established to assist the
                 administrators and specialists.
        C.       Evaluated the system administrators’ and security specialists’ roles and
                 responsibilities to determine whether duties were adequately separated.
II.     To determine whether security roles and responsibilities were effectively carried out, we
        selected 5 sites that employed the IRS’ Common Operating Environment and interviewed
        29 system administrators, security specialists, and customer support personnel available
        during our on-site visit. At these sites, we:
        A.       Used the Internet Security Scanner software and scanned a total of
                 90 workstations and 20 servers to identify security threats to the systems.
        B.       Evaluated controls used by either the system administrator or security specialist to
                 ensure users had a business need to access the LAN and were authorized to access
                 it. Also, we identified recent employee departures to determine if their LAN
                 access was still active.


1
 The System Administration, Audit, Network Security Institute was established in 1989 as a research and education
organization for government and private industry security.
                                                                                                         Page 10
     Inadequate Accountability and Training for Key Security Employees
         Contributed to Significant Computer Security Weaknesses

C.      Determined whether the system administrators or security specialists ran system
        logs and audit trails for the network, and whether the logs and audit trails were
        reviewed for inappropriate accesses.
D.      Interviewed the system administrators and security specialists to determine what
        functions they perform, the level of training they had received, and the accuracy
        of the IRS’ training database.




                                                                                   Page 11
          Inadequate Accountability and Training for Key Security Employees
              Contributed to Significant Computer Security Weaknesses

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Louis Lee, Senior Auditor
Bill Lessa, Senior Auditor
Abraham Millado, Senior Auditor
Joan Raniolo, Senior Auditor
Larry Reimer, Senior Auditor
Stasha Smith, Senior Auditor
Charles Ekholm, Auditor
Suzanne Noland, Auditor




                                                                                         Page 12
          Inadequate Accountability and Training for Key Security Employees
              Contributed to Significant Computer Security Weaknesses

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, End User Equipment & Services OS:CIO:I:EU
Director, Enterprise Operations OS:CIO:I:EO
Acting Director, Portfolio Management OS:CIO:R:PM
Acting Director, Regulatory Compliance OS:MA:RC
Acting Director, Strategy, Program Management, and Personnel Security OS:MA:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Mission Assurance OS:MA




                                                                                 Page 13
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses

                                                               Appendix IV


         Management’s Response to the Draft Report




                                                                    Page 14
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses




                                                                    Page 15
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses




                                                                    Page 16
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses




                                                                    Page 17
Inadequate Accountability and Training for Key Security Employees
    Contributed to Significant Computer Security Weaknesses




                                                                    Page 18
